4'

!

n
£
ois
2
Q

ZD

t

V)

O-'JO

ego2
o
oz

z°
V-

o:
<
2

v„

ApP£W6IX A

ft

USCA11 Case: 20-10622

Date Filed: 09/03/2020

Page: 1 of 3

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-10622-J

JORGE CERVANTES,
Petitioner-Appellant,
versus
SECRETARY, DEPARTMENT OF CORRECTIONS,
ATTORNEY GENERAL, STATE OF FLORIDA,
Respondents-Appellees.

Appeal from the United States District Court
for the Middle District of Florida

ORDER:
Jorge Cervantes, a Florida prisoner serving a life sentence for second-degree felony murder
and burglary with assault or while armed with a dangerous weapon, filed the instant pro se 28
U.S.C. § 2254 petition. The district court denied his petition and a certificate of appealability
(“COA”). Mr. Cervantes now seeks a COA and in forma pauperis (“IFP”) status.
In order to obtain a COA, a petitioner must make “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). He satisfies this requirement by demonstrating that
“reasonable jurists would find the district court’s assessment of the constitutional claims debatable
or wrong,” or that the issues “deserve encouragement to proceed further.” Slack v. McDaniel, 529
U.S. 473, 484 (2000) (quotation marks omitted).
In Claim 1, Mr. Cervantes argued that the trial court erred by allowing the state to introduce
a witness’s prior statement. Reasonable jurists would not debate the denial of this claim, as Mr.

USCA11 Case: 20-10622

Date Filed: 09/03/2020

Page: 2 of 3

Cervantes had not raised the federal constitutional nature of this claim in state court. See McNair
v. Campbell, 416 F.3d 1291, 1302 (11th Cir. 2005) (explaining that a habeas petitioner generally
cannot raise a claim in federal court if that claim was not first exhausted in state court). In Claim
2, Mr. Cervantes argued that appellate counsel failed to argue the wrongful admission of a
witness’s testimony that Mr. Cervantes previously had supplied her with pills. Reasonable jurists
would not debate the district court’s denial of this claim, as appellate counsel was not ineffective
for not raising an argument that was not properly preserved, and in any event, Mr. Cervantes has
not shown prejudice. See Hendrix v. State, 908 So. 2d 412, 426 (Fla. 2005).
In Claim 3, Mr. Cervantes argued that appellate counsel failed to move to correct his prison
releasee reoffender (“PRR”) designation. Reasonable jurists would not debate the denial of this
claim, as Mr. Cervantes’s conviction for second-degree felony murder is a qualifying crime under
the PRR statute. See Fla. Stat. § 775.082(9). In Claim 4, Mr. Cervantes argued that appellate
counsel failed to argue that the state failed to meet its burden to prove that he was a PRR.
Reasonable jurists would not debate the denial of this claim, as the state’s evidence was sufficient
to prove a PRR sentence. In Claim 5, Mr. Cervantes argued that appellate counsel failed to argue
that the trial court incorrectly assessed 240 victim injury points on his sentencing scoresheet.
Reasonable jurists would not debate the denial of this claim, as Mr. Cervantes was properly
assessed victim injury points because he was accountable for his acts under the felony murder rule.
See Harris v. State, 513 So. 2d 169, 169 (Fla. Dist. Ct. App. 1987).
In Claims 6 through 10, Mr. Cervantes argued that appellate counsel failed to challenge the
imposition of several costs at sentencing. Reasonable jurists would not debate the denial of this
claim, as the costs were properly imposed. In Claim 11, Mr. Cervantes argued that the cumulative
effect of appellate counsel’s errors prejudiced him. Reasonable jurists would not debate the denial

2

USCA11 Case: 20-10622

Date Filed: 09/03/2020

Page: 3 of 3

of this claim, as there are no errors to accumulate. See Insignares v. Sec ’y, Fla. Dep’t of Corr.,
755 F.3d 1273, 1288 (11th Cir. 2014).
In Claim 12, Mr. Cervantes argued that trial counsel failed to call an alibi witness.
Reasonable jurists would not debate the denial of this claim, as counsel’s decision not to call the
witness was reasonable, and the state court’s credibility determination in favor of counsel is
presumed correct. See Consalvo v. Sec ’y, Dep’t of Corr., 664 F.3d 842, 845 (11th Cir. 2011). In
Claims 13 through 15, Mr. Cervantes argued that trial counsel failed to impeach two witnesses
with inconsistent statements and phone-record evidence, and the cumulative effect of counsel’s
errors prejudiced him. Reasonable jurists would not debate the denial of these claims, as counsel’s
cross-examination of the two witnesses was effective and elicited inconsistencies in their
statements. Because there is no single error, there are no errors to accumulate.
In Claims 16 and 17, Mr. Cervantes argued that post-conviction trial counsel failed to
develop all grounds in his Fla. R. Crim. P. 3.850 motion and present evidence at his evidentiary
hearing, and post-conviction appellate counsel failed to appeal all claims in his Rule 3.850 motion.
Reasonable jurists would not debate the denial of these claims, as they are unexhausted, and Mr.
Cervantes has not shown cause or prejudice or actual innocence to overcome the procedural bar.
Finally, the district court did not abuse its discretion in denying Mr. Cervantes’s motion to
amend/supplement and his request for an evidentiary hearing.
Accordingly, Mr. Cervantes’s COA motion is DENIED, and his IFP motion is DENIED
AS MOOT.
/s/. Jill Pryor
UNITED STATES CIRCUIT JUDGE

3

USCA11 Case: 20-10622

Date Filed: 09/03/2020

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal l .uscourts.gov

David J. Smith
Clerk of Court

September 03, 2020
Jorge Cervantes
Martin Cl - Inmate Legal Mail
1150 SW ALLAPATTAH RD
INDIANTOWN, FL 34956
Appeal Number: 20-10622-J
Case Style: Jorge Cervantes v. Secretary, Department of Corr., et al
District Court Docket No: 6:18-cv-01302-GKS-LRH
The enclosed copy of this Court's order denying the application for a Certificate of
Appealability is issued as the mandate of this court. See 11th Cir. R. 41-4. Counsel and pro se
parties are advised that pursuant to 11th Cir. R. 27-2, "a motion to reconsider, vacate, or modify
an order must be filed within 21 days of the entry of such order. No additional time shall be
allowed for mailing."
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Davina C Bumey-Smith, J
Phone#: (404)335-6183
Enclosure(s)
DIS-4 Multi-purpose dismissal letter

Case 6:18-CV-01302-GKS-LRH Document 29 Filed 01/17/20 Page 1 of 20 PagelD 1709

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
JORGE CERVANTES,
Petitioner,
v.

Case No: 6:18-cv-1302-Orl-18LRH

SECRETARY, DEPARTMENT OF
CORRECTIONS, and ATTORNEY
GENERAL, STATE OF FLORIDA,
Respondents.
ORDER
THIS CAUSE is before the Court on Petitioner Jorge Cervantes' Petition for Writ
of Habeas Corpus ("Petition," Doc. 1) filed pursuant to 28 U.S.C. § 2254 and his Motion
for Leave to Amend/Supplement Pleadings (Doc. 21). Respondents filed a Response to
the Petition ("Response," Doc. 9) in compliance with this Court's instructions. Petitioner
filed a Reply to the Response ("Reply," Doc. 25).
Petitioner asserts seventeen grounds for relief in his Petition and additional
ground(s) in his Motion for Leave to Amend/Supplement Pleadings.1 For the following
reasons, the Petition and Motion for Leave to Amend/Supplement will be denied.

1 Petitioner asserted five grounds in the Petition. However, Petitioner included
multiple sub-parts in some of the grounds. The Court will relabel each ground
numerically as One through Seventeen versus One, Two(a), Two(b), etc. Grounds Sixteen
and Seventeen have multiple sub-parts, which the Court will address together.
1

Case 6:l8-cv-0l302-GKS-LRH Document 29 Filed 01/17/20 Page 2 of 20 PagelD 1710

I.

Procedural History

The State Attorney for the Seventh Judicial Circuit of Volusia County, Florida
charged Petitioner with second-degree felony murder (Count One) and burglary with an
assault or battery with a dangerous weapon (Count Two). (Doc. 9-2 at 5.) A jury found
Petitioner guilty as charged. (Id. at 876.) The trial court sentenced Petitioner as a prison
releasee reoffender ("PRR") to concurrent terms of life in prison. (Id. at 904.) Petitioner
appealed, and the Fifth District Court of Appeal of Florida ("Fifth DCA") affirmed per
curiam. (Id. at 984.)
Petitioner filed a state habeas petition alleging claims of ineffective assistance of
appellate counsel. (Id. at 988-1010.) The Fifth DCA summarily denied the petition. (Id. at
1035.)
Petitioner filed a motion for post-conviction relief pursuant to Rule 3.850 of the
Florida Rules of Criminal Procedure, which he amended. (Id. at 1037-79.) The state court
appointed Petitioner counsel and held an evidentiary hearing on his claims. (Id. at 1120.)
The state court denied relief after the hearing. (Id. at 1206-12.) Petitioner appealed, and
the Fifth DCA affirmed per curiam. (Id. at 1264.)
II.
A.

Legal Standards

Standard Of Review Under The Antiterrorism Effective Death Penalty
Act ("AEDPA")

Pursuant to the AEDPA, federal habeas relief may not be granted with respect to
a claim adjudicated on the merits in state court unless the adjudication of the claim:
(1)

resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as

2

Case 6:l8-cv-01302-GKS-LRH Document 29 Filed 01/17/20 Page 3 of 20 PagelD 1711

determined by the Supreme Court of the United States; or
(2)

resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.

28 U.S.C. § 2254(d). The phrase "clearly established Federal law/' encompasses only the
holdings of the Supreme Court of the United States "as of the time of the relevant statecourt decision." Williams v. Taylor, 529 U.S. 362,412 (2000).
"[Sjection 2254(d)(1) provides two separate bases for reviewing state court
decisions; the 'contrary to' and 'unreasonable application' clauses articulate independent
considerations a federal court must consider." Maharaj v. Sec'y for Dep't ofCorr., 432 F.3d
1292,1308 (11th Cir. 2005). The meaning of the clauses was discussed by the Eleventh
Circuit Court of Appeals in Parker v. Head, 244 F.3d 831,835 (11th Cir. 2001):
,

Under the "contrary to" clause, a federal court may grant the writ if the
state court arrives at a conclusion opposite to that reached by [the United
States Supreme Court] on a question of law or if the state court decides a
case differently than [the United States Supreme Court] has on a set of
materially indistinguishable facts. Under die 'unreasonable application'
clause, a federal habeas court may grant the writ if the state court identifies
the correct governing legal principle from [the United States Supreme
Court's] decisions but unreasonably applies that principle to the facte of the
prisoner's case.

Even if the federal court concludes that the state court applied federal law incorrectly,
habeas relief is appropriate only if that application was "objectively unreasonable." Id.
Finally, under § 2254(d)(2), a federal court may grant a writ of habeas corpus if the
state court's decision "was based on an unreasonable determination of the facte in light
of the evidence presented in the State court proceeding." A determination of a factual
issue made by a state court, however, shall be presumed correct, and the habeas petitioner
3

case 6:l8-cv-0l302-GKS-LRH Document 29 Filed 01/17/20 Page 4 of 20 PagelD 1712

shall have the burden of rebutting the presumption of correctness by clear and convincing
evidence. See Parker, 244 F.3d at 835-36; 28 U.S.C. § 2254(e)(1).
B.

Standard For Ineffective Assistance Of Counsel

The Supreme Court of the United States in Strickland v. Washington, 466 U.S. 668
(1984), established a two-part test for determining whether a convicted person is entitled
to relief on the ground that his counsel rendered ineffective assistance: (1) whether
counsel's performance was deficient and "fell below an objective standard of
reasonableness"; and (2) whether the deficient performance prejudiced the defense.2 Id.
at 687-88. A court must adhere to a strong presumption that counsel's conduct falls within
the wide range of reasonable professional assistance. Id. at 689-90. "Thus, a court deciding
an actual ineffectiveness claim must judge the reasonableness of counsel's challenged
conduct on the facts of the particular case, viewed as of the time of counsel's conduct."
Id. at 690; Gates v. Zant, 863 F.2d 1492,1497 (11th Cir. 1989).
As observed by the Eleventh Circuit Court of Appeals, the test for ineffective
assistance of counsel:
has nothing to do with what the best lawyers would have done. Nor is the
test even what most good lawyers would have done. We ask only whether
some reasonable lawyer at the trial could have acted, in the circumstances,
as defense counsel acted at trial. Courts also should at the start presume
effectiveness and should always avoid second guessing with the benefit of
hindsight. Strickland encourages reviewing courts to allow lawyers broad
2In Lockhart v. Fretwell, 506 U.S. 364,372 (1993), the Supreme Court of the United
States clarified that the prejudice prong of the test does not focus solely on mere outcome
determination; rather, to establish prejudice, a criminal defendant must show that
counsel's deficient representation rendered the result of the trial fundamentally unfair or
unreliable.

4

Case 6:l8-cv-01302-GKS-LRH Document 29 Filed 01/17/20 Page 5 of 20 PagelD 1713

discretion to represent their clients by pursuing their own strategy. We are
not interested in grading lawyers' performances; we are interested in
whether the adversarial process at trial, in fact, worked adequately.
White v. Singletary, 972 F.2d 1218,1220-21 (11th Cir. 1992) (citation omitted). Under those
rules and presumptions, "the cases in which habeas petitioners can properly prevail on
the ground of ineffective assistance of counsel are few and far between." Rogers v. Zant,
13 F.3d 384,386 (11th Cir. 1994).
IIL

Analysis

A. Grounds One, Thirteen (Three(b)), Fourteen (Three(c)), Fifteen (Three(d)),
Sixteen (Four), and Seventeen (Five)
In Ground One, Petitioner asserts that the trial court erred by admitting Tawnya
Crichton's prior statement to Detective Goss into evidence. (Doc. 1 at 8-9.) In Grounds
Thirteen (Three (b)), Fourteen (Three (c)), and Fifteen (Three (d)), Petitioner respectively
argues that trial counsel rendered ineffective assistance by failing to impeach Erica
Mulcahy ("Mulcahy") with her deposition testimony and failing to impeach Tiffany
Crichton ("Tiffany") with her deposition testimony and phone records and the
cumulative effect of trial counsel's errors denied him of effective assistance of counsel.
(Id. at 22-26.) In Ground Sixteen (Four), Petitioner contends that his post-conviction
counsel rendered ineffective assistance by failing to present various evidence, make
arguments, and investigate numerous issues. (Id. at 28-32.) Petitioner also complains in
Ground Seventeen (Five) that his post-conviction appellate counsel rendered ineffective
assistance by failing to appeal the denial of all the issues raised in his post-conviction
motion. (Id. at 34-35.)

5

Case 6:18-cv-0l302-GKS-LRH Document 29 Filed 01/17/20 Page 6 of 20 PageiD 1714

Respondents argue that these grounds are unexhausted and procedurally barred.
(Doc. 9 at 9-16.) Pursuant to the AEDPA, federal courts are precluded, absent exceptional
circumstances, from granting habeas relief unless the petitioner has exhausted all means
of available relief under state law. 28 U.S.C. § 2254(b); O'Sullivan v. Boerckel, 526 U.S. 838,
842-44 (1999). In order to satisfy the exhaustion requirement a "petitioner must 'fairly
present[ ]' every issue raised in his federal petition to the state's highest court, either on
direct appeal or on collateral review."Isaac v. Augusta SMP Warden, 470 F. App'x 816,818
(11th Cir. 2012) (quoting Castille v. Peoples, 489 U.S. 346, 351 (1989)); see also Duncan v.
Henry, 513 U.S. 364,365 (1995) ("[EJxhaustion of state remedies requires that petitioners
fairly present federal claims to the state courts in order to give the State the opportunity
to pass upon and correct alleged violations of its prisoners' federal rights.") (quotation
omitted). A petitioner must apprise the state court of the federal constitutional issue, not
just the underlying facts of the claim or a similar state law claim. Snowden v. Singletary,
135 F.3d 732,735 (11th Cir. 1998).
Procedural default may be excused only in two narrow circumstances: if a
petitioner can show (1) cause and prejudice or (2) actual innocence. Murray v. Carrier, 477
U S. 478, 496 (1986); Wright v. Hopper, 169 F.3d 695, 703 (11th Cir. 1999). "To establish
'cause' for procedural default, a petitioner must demonstrate that some objective factor
external to the defense impeded the effort to raise the claim properly in the state court."
Wright v. Hopper, 169 F.3d 695, 703 (11th Cir. 1999). "[EJxternal impediments include
evidence that could not reasonably have been discovered in time to comply with the rule;
interference by state officials that made compliance impossible; and ineffective assistance
6

case 6:l8-cv-0l302-GKS-LRH Document 29 Filed 01/17/20 Page 7 of 20 PagelD 1715

of counsel at a stage where the petitioner had a right to counsel." Mize v. Hall, 532 F.3d
1184,1190 (11th Cir. 2008) (citing Judd v. Haley, 250 F.3d 1308,1313 (11th Cir. 2001)). The
Supreme Court of the United States has held that a prisoner may demonstrate cause for
failing to raise a claim of ineffective assistance of trial counsel in a collateral proceeding
when (1) "the state courts did not appoint counsel in the initial-review collateral
proceeding" or (2) "appointed counsel in the initial-review collateral proceeding, where
the claim should have been raised, was ineffective" pursuant to Strickland. Martinez v.
Ryan, 566 U.S. 1,14 (2012). In such instances, the prisoner "must also demonstrate that
the underlying ineffective-assistance-of-trial-counsel claim is a substantial one, which is
to say that the prisoner must demonstrate that the claim has some merit." Id. Finally, to
establish "prejudice" so as to warrant review of a procedurally defaulted claim, a
petitioner must show that there is at least a reasonable probability that the result of the
proceeding would have been different. Henderson v. Campbell, 353 F.3d 880,892 (11th Cir.
2003) (citations omitted).
The second exception, known as the "fundamental miscarriage of justice," only
occurs in an extraordinary case, in which a "constitutional violation has probably resulted
in the conviction of one who is actually innocent." Murray v. Carrier, 477 U.S. 478,496
(1986). Actual innocence means factual innocence, not legal insufficiency. Bousley v.
United States, 523 U.S. 614,623 (1998).
Petitioner raised Ground One on direct appeal. (Doc. 9-2 at 955-57). However, he
did not raise it as a federal issue and relied only on state law. Petitioner raised Grounds
Thirteen, Fourteen, and Fifteen in his Rule 3.850 motion. (Id. at 1037-79.) Petitioner,
7

Case 6:18-cv-01302-GKS-LRH Document 29 Filed 01/17/20 Page 8 of 20 PagelD 1716

however, did not appeal the denial of these grounds. See id. at 1220-42. Petitioner did not
raise Grounds Sixteen or Seventeen in the state court. Therefore, these grounds are
unexhausted and procedurally barred absent an exception to the procedural default bar.
See, e.g., Utile v. State, 235 So. 3d 1045,1049 n.2 (Fla. 5th DCA 2018) ("Ground four has not
been separately briefed, and thus, appellate review of this ground has not been
preserved.").
To overcome his failure to exhaust Ground One in the state court, Petitioner argues
that appellate counsel's failure to raise the issue as a federal claim constitutes cause to
overcome the default. (Doc. 25 at 19-20.) Before an ineffective assistance of counsel claim
may be used to establish cause for the procedural default of another claim, the ineffective
assistance of counsel claim itself must be exhausted in the state court or the petitioner
must show cause and prejudice for his failure to do so. Edwards v. Carpenter, 529 U.S. 446,
453 (2000). Petitioner did not raise a claim of ineffective assistance of appellate counsel in
the state court based on counsel's failure to raise Ground One as a federal issue on direct
appeal. Moreover, Petitioner has not established cause or prejudice for his failure to do
so.

Petitioner next relies on Martinez to overcome his procedural default of Grounds
Thirteen, Fourteen, and Fifteen. See Doc. 21 at 5-8. However,"Martinez rule is expressly
limited to attorney errors in initial-review collateral proceedings: '[Tjhe holding in
[Martinez] does not concern attorney errors in other kinds of proceedings, including
appealsfrom initial-reinew collateral proceedings, second or successive collateral proceedings,
and petitions for discretionary review in a State's appellate courts.'" Lambrix v. Sec'y, Fla.
8

Case 6:l8-cv-0l302-GKS-LRH Document 29 Filed 01/17/20 Page 9 of 20 PagelD 1717

Dep't of Corr., 756 F.3d 1246,1260 (11th Cir. 2014) (emphasis added) (quoting Martinez,
566 U.S. at 16). Consequently, Petitioner has not demonstrated cause and prejudice to
overcome his procedural default of any of these grounds. Likewise, he has not established
he is actually innocent. Therefore, Grounds One, Thirteen, Fourteen, Fifteen, Sixteen, and
Seventeen are procedurally barred and denied.3
B.

Ground Two (Two(a))

Petitioner asserts appellate counsel rendered ineffective assistance by failing to
argue that the trial court improperly allowed Crichton to testify that Petitioner had
previously supplied her with pills. (Doc. 1 at 12.) To support this ground, Petitioner notes
that trial counsel objected to the testimony based on relevance and argues that the bad
act testimony was prejudicial. (Id.)
Petitioner raised this ground in his state habeas petition. The Fifth DCA summarily

3 Alternatively, to the extent Grounds One, Thirteen, Fourteen, and Fifteen are
exhausted, they are denied pursuant to § 2254(d). The evidence against Petitioner was
substantial and included the testimony of Tawnya Crichton, Petitioner's co-defendant,
that Petitioner committed the offenses; the testimony of Jocelyn Hogue, the girlfriend of
Christopher Smith ("Smith"), the decedent-perpetrator, that Petitioner was with Crichton
and Smith the night of the incident; the testimony of Tiffany Crichton, Tawnya Crichton's
sister, that Petitioner told her after the offenses that Tawnya and Smith had been shot but
he had gotten away; and cellphone records and text messages that corroborated their
testimony. Consequently, the admission of Crichton's statement to police, if error, was
harmless. Furthermore, Petitioner has not demonstrated that trial counsel rendered
deficient performance or that prejudice occurred based on counsel's performance.
Finally, the Supreme Court of the United States has held "'[tjhere is no constitutional
right to an attorney in state post-conviction proceedings!.]'" Holland v. Florida, 560 U.S.
631, 656 (2010) (quoting Coleman v. Thompson, 501 U.S. 722, 752 (1991)). Therefore, "'a
petitioner cannot claim constitutionally ineffective assistance of counsel in such
proceedings.'" Id. (quoting Coleman, 501 U.S. at 752). Accordingly, Grounds Sixteen and
Seventeen are not cognizable independent claims in this proceeding.
9

Case 6:18-cv-01302-GKS-LRH Document 29 Filed 01/17/20 Page 10 of 20 PagelD 1718

denied relief. (Id. at 1035.)
Petitioner has not established that the state court's denial of this ground is contrary
to, or an unreasonable application of, Strickland. Trial counsel only objected to the
testimony based on relevance. See Doc. 9-2 at 363-64. Pursuant to Florida law, "in order
for an argument to be cognizable on appeal, it must be the specific contention asserted as
legal ground for the objection, exception, or motion below." Steinhorst v. State, 412 So. 2d
332,338 (Fla. 1982). Petitioner did not object to the testimony based on improper bad act
evidence or as prejudicial. Consequently, the issue was not preserved for appeal.
Furthermore, Crichton's testimony about Petitioner providing her with pills was limited,
was not made a feature of the trial, and the evidence of Petitioner's guilt was substantial.
Thus, any error in the admission of the evidence was harmless. Appellate counsel,
therefore, was not deficient and prejudice did not result from counsel's failure to raise
the issue. Accordingly, Ground Two is denied pursuant to § 2254(d).
C.

Ground Three (Two(b))

Petitioner contends appellate counsel rendered ineffective assistance by failing to
correct a sentencing error. (Doc. 1 at 12-13.) According to Petitioner, he could not be
sentenced as a PRR for second-degree felony murder because he did not commit the
actual killing. (Id.)
Petitioner raised this ground in his state habeas petition. The Fifth DCA summarily
denied relief. (Id. at 1035.)
The state court's denial of this ground is not contrary to, or an unreasonable
application of, Strickland. Under Florida law, any defendant who commits, or attempts to
10

Case 6:l8-c\M)1302-GKS-LRH Document 29 Filed 01/17/20 Page 11 of 20 PagelD 1719

commit murder within three years after being released from prison qualifies as a PRR.
Fla. Stat. § 775.082(9)(a)l.b. The term "murder" includes all degrees of murder pursuant
to Florida law. Souza v. State, 889 So. 2d 952,956 (Fla. 5th DCA 2004) ("[SJeveral degrees
of murder and a number of different methods of committing that crime [are] set forth in
the statutes, yet the PRR Act does not differentiate, for example, between second and
third degree murder."). Consequently, Petitioner's conviction for second-degree felony
murder qualified him for sentencing as a PRR. Appellate counsel, therefore, was not
deficient for failing to argue Petitioner did not qualify for a PRR sentence and prejudice
did not result from counsel's failure to do so. Accordingly, Ground Three is denied
pursuant to § 2254(d).
D.

Ground Four (Two(c))

Petitioner asserts appellate counsel rendered ineffective assistance by failing to
argue that the PRR sentences were illegally imposed. (Doc. 1 at 13-14.) In support of this
ground, Petitioner maintains that the evidence presented by the State of his federal
conviction and sentence were not sufficient to establish that he was the individual
referenced in the documents. (Id.)
Petitioner raised this ground in his state habeas petition. The Fifth DCA summarily
denied the petition. (Id. at 1035.)
The state court's denial of this ground is not contrary to, or an unreasonable
application of, Strickland. To obtain a PRR sentence, the State must prove by a
preponderance of the evidence that the defendant and the releasee are the same person.
Wencel v. State, 768 So. 2d 494, 495 (Fla. 4th DCA 2000). Fingerprint evidence is not
11

Case 6:l8-cv-0l302-GKS-LRH Document 29 Filed 01/17/20 Page 12 of 20 PagelD 1720

necessary to meet this burden. Id. The State may carry its burden by presenting
photographic evidence of the issue. Johnson v. State, 936 So. 2d 672, 674 (Fla. 4th DCA
2006).
At sentencing, the State presented inter alia a federal judgment, an affidavit from a
United States Probation Officer attesting that the person referenced in the federal
judgment was the same individual with the same birth date shown in the attached
driver's license photograph belonging to Petitioner, and a copy of Petitioner's driver's
license containing his picture. (Doc. 9-2 at 909-22.) Petitioner did not refute the State's
evidence. The state court determined that the evidence presented was sufficient under
state law to establish by a preponderance of the evidence that Petitioner qualified as a
PRR. (Id. at 897-900.) The state court's determination was a reasonable determination of
the facts in light of the evidence presented. Consequently, Petitioner has not established
that appellate counsel was deficient for failing to raise this argument or that prejudice
resulted from counsel's failure to do so. Accordingly, Ground Four is denied pursuant to
§ 2254(d).
E.

Ground Five (Two(d))

Petitioner contends appellate counsel rendered ineffective assistance by failing to
argue that Petitioner was improperly assessed 240 victim injury points on the sentencing
scoresheet. (Doc. 1 at 14.) According to Petitioner, his co-felon was shot by someone else
while escaping, and Petitioner therefore, could not be assessed the victim injury points.
(Id. at 14-15.)
Petitioner raised this ground in his state habeas petition. The Fifth DCA summarily
12

Case 6:l8-cv-0l302-GKS-LRH Document 29 Filed 01/17/20 Page 13 of 20 PagelD 1721

denied the petition. (Id. at 1035.)
The state court's denial of this ground is not contrary to, or an unreasonable
application of, Strickland. "The felony murder rule, along with the 'principals' statute, is
meant to make all participants equally accountable for their criminal acts." Harris v. State,
513 So. 2d 169,169 (Fla. 5th DCA1987). "[A]n aider or abettor is properly assessed points
for victim injuries." Taylor v. State, 619 So. 2d 1017,1018 (Fla. 5th DCA 1993). Moreover,
because Petitioner was convicted of second-degree felony murder and burglary with an
assault or battery with a dangerous weapon and qualified as a PRR, he had to be
sentenced to life. See Fla. Stat. 775.082(9)(a)3; see also Scott v. State, 109 So. 3d 866,866 n.l
(Fla. 3d DCA 2013) ("Because second-degree murder is a first-degree felony punishable
by life, . . . Scott's status as a prison releasee reoffender requires imposition of a
mandatory life sentence."). Appellate counsel, therefore, was not deficient for failing to
raise this argument and prejudice did not result from counsel's failure to do so.
Accordingly, Ground Five is denied pursuant to § 2254(d).
F.

Grounds Six, Seven, Eight, Nine, and Ten (Two(e)(l) through Two(e)(5))

Petitioner asserts appellate counsel rendered ineffective assistance by failing to
argue that the trial court improperly assessed (1) a $100 indigent defense cost/fee without
notification he had thirty days to contest the fee, (2) a $100 prosecution cost where the
state attorney did not request it, (3) a $2 "felony standard" cost where there was no
municipal or county ordinance violated, (4) a $65 additional court cost and surcharge
where there is no evidence that Volusia County adopted such an ordinance, and (5) a fine
pursuant to § 775.083(2) where it was not pronounced orally. (Doc. 1 at 15-18.)
13

Case 6:18-cv-0l302-GKS-LRH Document 29 Filed 01/17/20 Page 14 of 20 PagelD 1722

Petitioner raised these grounds in his state habeas petition. The Fifth DCA
summarily denied the petition. (Id. at 1035.)
The state court's denial of these grounds is not contrary to, or an unreasonable
application of, Strickland. First, "[wjith or without a hearing, the Legislature requires that
a minimum fee of $100 be imposed when a person convicted of a felony 'has received the
assistance of the public defender's office, a special assistant public defender, the office of
criminal conflict and civil regional counsel....'" Mills v. State, 177 So. 3d 984,988 (Fla. 1st
DCA 2015) (quoting Fla. Stat. § 938.29(l)(a)). Consequently, the imposition of the
minimum $100 fee is mandatory and does not require notice or a hearing before it is
imposed. Id. Similarly, "the mandatory provisions of section 938.27(8)4 and the other
amendments restricting the trial judge's discretion have negated any reason to require
the state attorney to request the minimum costs for the state attorney." Hills v. State, 90
So. 3d 927, 928 (Fla. 1st DCA 2012) (footnote added). Thus, the imposition of a $100
prosecution cost without a request from the prosecutor was proper.
Furthermore, "[t]he board of county commissioners may adopt by ordinance an
additional court cost, not to exceed $65, to be imposed by the court when a person... is
found guilty of.. . any felony... under the laws of this state." Fla. Stat. § 939.185(l)(a).
Counties are also allowed to assess an additional $2 for expenditures for criminal justice
education degree programs and training courses. Fla. Stat. § 938.15. Volusia County

4 Section 938.27(8) provides in pertinent part that "[cjosts for the state attorney
must be set in all cases at... no less than $100 per case when a felony offense is charged.
..."Fla. Stat. §938.27 (8).
14

Case 6:l8-cv-0l302-GKS-LRH Document 29 Filed 01/17/20 Page 15 of 20 PagelD 1723

enacted a mandatory $65 court cost and a $2 education fee pursuant to these statutes. See
Volusia County, Fla. Code of Ordinances, art. II, §§ 38-32(a), 38-33(a). Thus, appellate
counsel had no basis on which to challenge the imposition of this cost or fee. Finally, the
imposition of a prosecution cost under § 775.083(2) is mandatory and need not be
pronounced orally. Bryant v. State, 47 So. 3d 952, 953 (Fla. 2nd DCA 2010). Petitioner,
therefore, has not established deficient performance or prejudice. Accordingly, Grounds
Six through Ten are denied pursuant to § 2254(d).
G.

Ground Eleven (Two(f))

Petitioner maintains that the cumulative effect of appellate counsel's errors denied
him effective assistance of counsel. Petitioner raised part of this ground in his state habeas
petition.5 (Doc. 9-2 at 1009.) The Fifth DCA summarily denied the petition. (Id. at 1035.)
"The Supreme Court has not directly addressed the applicability of the cumulative
error doctrine in the context of an ineffective assistance of counsel claim." Forrest v. Fla.
Dep't of Corr., 342 F. App'x 560, 564 (11th Cir. 2009). The Supreme Court has held,
however, in relation to a claim of ineffective assistance of counsel, that "'there is generally
no basis for finding a Sixth Amendment violation unless the accused can show how
specific errors of counsel undermined the reliability of the finding of guilt.'" Id. (quoting
United States v. Cronic, 466 U.S. 648,659 n. 26 (1984)).

5 To the extent Petitioner complains about appellate counsel's failure to argue that
the trial court erred by failing to allow Detective Goss to be cross-examined concerning
Dustin Arnold's report to police, this argument was not raised in the state court. See Doc.
9-2 at 988-1009. Petitioner has not shown cause or prejudice or actual innocence to
overcome his failure to exhaust this portion of Ground Eleven. Consequently, it is
procedurally barred from review.
15

Case 6:l8-cv-01302-GKS-LRH Document 29 Filed 01/17/20 Page 16 of 20 PagelD 1724

Petitioner has not demonstrated that appellate counsel rendered ineffective
assistance in any of his grounds. Consequently, Petitioner's claim of cumulative error
fails. See, e.g., Borden v. Allen, 646 F.3d 785,823 (11th Cir. 2011) ("Because Borden has not
sufficiently pled facts that would establish prejudice—cumulative or otherwise—we
decline to elaborate further on [a cumulative-effect ineffective assistance of counsel claim]
for fear of issuing an advisory opinion on a hypothetical issue."). Accordingly, Ground
Eleven is denied pursuant to § 2254(d).
H.

Ground Twelve (Three(a))

Petitioner asserts trial counsel rendered ineffective assistance by failing to call
Antonio James ("James") as an alibi witness. (Doc. 1 at 21.) To support this ground,
Petitioner contends that trial counsel misinformed him that James was unavailable to
testify. (Id. at 21-23.) According to Petitioner, James would have testified that he saw
Petitioner go to his room around 12:00 a.m. on the night of the offenses and checked on
Petitioner, who was feeling ill, at least four times before he (James) went to bed after 2:30
a.m. (Id.)
Petitioner raised this ground in his Rule 3.850 motion. The state court conducted
an evidentiary hearing on the ground and denied relief. (Doc. 9-2 at 1208-09.) The state
court credited counsel's testimony that she discussed with Petitioner that James would
not be a good alibi witness and they jointly agreed not to call him. (Id.)
Petitioner has not established that the state court's denial of this ground is contrary
to, or an unreasonable application of, Strickland. The state court made a factual
determination that counsel's testimony that she discussed whether to call James as a
16

Case 6:l8-cv-01302-GKS-LRH Document 29 Filed 01/17/20 Page 17 of 20 PagelD 1725

witness with Petitioner and Petitioner agreed not to call him. "Credibility determinations
are factual findings and therefore 'are presumed to be correct absent clear and convincing
evidence to the contrary/" Guerra v. Sec'y, Dep't of Corr., 271 F. App'x 870,871 (11th Cir.
2008) (quoting Miller-El v. Cockrell, 537 U.S. 322,340 (2003)).
Defense counsel testified at the evidentiary hearing that she spoke with James the
night before the defense presented its case. (Id. at 1132.) Counsel said James told her that
he did not see Petitioner after 10:00 p.m. on the night of the incident, which was different
than James' deposition testimony. (Id.) According to counsel, James maintained his
deposition was incorrect. (Id.) Counsel testified that she told Petitioner about her
conversation with James and recommended they not call him as a witness. She denied
telling Petitioner that James was unavailable for trial. (Id. at 1134,1136-37.) Counsel said
Petitioner agreed with her recommendation not to call James as a witness. (Id. at 1137.)
Although Petitioner testified that counsel told him that James was not available to testify,
Petitioner has not demonstrated by clear and convincing evidence that the state court's
factual determination is incorrect. Consequently, Petitioner has not demonstrated that
counsel was deficient for failing to call James as a witness. Furthermore, Petitioner has
not established a reasonable probability exists that he would have been acquitted had
James testified in light of the substantial evidence presented of his guilt. Accordingly,
Ground Twelve is denied pursuant to § 2254(d).
Any of Petitioner's allegations not specifically addressed herein have been found
to be without merit.

17

Case 6:18-cv-0l302-GKS-LRH Document 29 Filed 01/17/20 Page 18 of 20 PagelD 1726

IV.

Motion For Leave To Amend/Supplement Pleadings

Petitioner seeks to amend or supplement his Petition. (Doc. 21.) It is not clear how
Petitioner wishes to amend or supplement the Petition. To the extent Petitioner is
responding to Respondents' arguments concerning the procedural default bar as to any
of die grounds for relief asserted in the Petition, the Court has considered Petitioner's
contentions in determining whether those grounds are procedurally barred.
To the extent Petitioner may be seeking to raise additional claims of ineffective
assistance of counsel or prosecutorial misconduct, the Eleventh Circuit has held that
claims asserted in an amendment to a habeas petition must be filed within the one-year
statute of limitation pursuant to 28 U.S.C.' 2244. See Farris v. United States, 333 F. 3d 1211,
1215 (11th Cir. 2003). Furthermore, Federal Rule of Civil Procedure 15(c) "dictates that an
amendment only relates back to the original pleading and causes an otherwise untimely
claim to be considered timely when,... 'the claim or defense asserted in the amended
pleading arose out of the conduct, transaction, or occurrence set forth or attempted to be
set forth in the original pleading.'" Id. (quoting Fed. R. Civ. P. 15(c)(2)). The Eleventh
Circuit has concluded:
to relate back, an untimely claim must have more in common with the
timely filed claim than the mere fact that they arose out of the same trial or
sentencing proceeding. The untimely filed claim must have arisen from the
"same set of facts" as the timely filed claim, not from separate conduct or a
separate occurrence in "both time and type."
Farris, 333 F.3d at 1215 (quoting Davenport v. United States, 217 F. 3d 1341,1343 n.4 (11th
Cir. 2000)). Likewise, the Supreme Court of the United States has held that "[a]n amended
habeas petition, . . . does not relate back (and thereby escape AEDPA's one-year time
18

Case 6:l8-cv-0l302-GKS-LRH Document 29 Filed 01/17/20 Page 19 of 20 PagelD 1727

limit) when it asserts a new ground for relief supported by facts that differ in both time
and type from those the original pleading set forth." Moyle v. Felix, 545 U.S. 644, 650
(2005).
Pursuant to 28 U.S.C. ' 2244(d)(1)(A), Petitioner had until the latest August 20,
2018, to file his habeas petition or amend/supplement the petition. Petitioner's motion,
however, was filed on July 1,2019. Furthermore, to the extent Petitioner seeks to assert
that counsel rendered ineffective assistance by failing to provide him with discovery or
investigate the phone records, see Doc. 21 at 4-6,11-16, these claims do not relate back to
the original seventeen claims raised in the timely filed Petition because they do not arise
from the same facts or occurrences. Furthermore, the new claim(s) are not exhausted and
thus would be procedurally barred from review. Accordingly, Petitioner's Motion for
Leave to Amend/Supplement the Pleadings (Doc. 21) is denied.
V.

Certificate Of Appealability

This Court should grant an application for certificate of appealability only if the
Petitioner makes "a substantial showing of the denial of a constitutional right." 28 U.S.C.
’ 2253(c)(2). To make such a showing "the petitioner must demonstrate that reasonable
jurists would find the district court's assessment of the constitutional claims debatable or
wrong." Slack v. McDaniel, 529 U.S. 473,484 (2000); see also Lamarca v. Sec'y, Dep't of Corr.,
568 F.3d 929,934 (llthCir. 2009). When a district court dismisses a federal habeas petition
on procedural grounds without reaching the underlying constitutional claim, a certificate
of appealability should issue only when a petitioner shows "that jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a constitutional
19

Case 6:l8-cv-0l302-GKS-LRH Document 29 Filed 01/17/20 Page 20 of 20 PagelD 1728

right and that jurists of reason would find it debatable whether the district court was
correct in its procedural ruling." Id.; Lamarca, 568 F.3d at 934. However, a prisoner need
not show that the appeal will succeed. Miller-El v. Cockrell, 537 U.S. 322,337 (2003).
Petitioner has not demonstrated that reasonable jurists would find the district
court's assessment of the constitutional claims debatable or wrong. Moreover, Petitioner
cannot show that jurists of reason would find this Court's procedural rulings debatable.
Petitioner has failed to make a substantial showing of the denial of a constitutional right.
Thus, the Court will deny Petitioner a certificate of appealability.
For the foregoing reasons, it is ORDERED AND ADJUDGED as follows:
1.

The Petition for Writ of Habeas Corpus (Doc. 1) is DENIED, and this case

is DISMISSED WITH PREJUDICE.
2.

Petitioner's Motion for Leave to Amend/Supplement Pleadings (Doc. 21) is

DENIED.
3.

Petitioner is DENIED a Certificate of Appealability.

4.

The Clerk of the Court is directed to enter judgment accordingly and close

this case.
DONE and ORDERED in Orlando, Florida on January I *J . 2020.

G. KEND ^LL SHARP
\J
SENIOR U^NTIED STATES DISRTICT JUDGE
Copies furnished to:
Counsel of Record
Unrepresented Party

20

Case 6:18-cv-01302-GKS-LRH Document 30 Filed 01/21/20 Page 1 of 2 PagelD 1729

UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF FLORIDA
ORLANDO DIVISION
JORGE CERVANTES,
Petitioner,
Case No: 6:18-cv-1302-Orl-18LRH

v.

SECRETARY, DEPARTMENT OF
CORRECTIONS and ATTORNEY
GENERAL, STATE OF FLORIDA,
Respondents.

JUDGMENT IN A CIVIL CASE
Decision by Court.

This action came before the Court and a decision has been rendered.

IT IS ORDERED AND ADJUDGED that the Petition for Writ of Habeas Corpus is
DENIED, and this case is DISMISSED WITH PREJUDICE.
Date: January 21, 2020
ELIZABETH M. WARREN,
CLERK
s/SPM, Deputy Clerk

Case 6:18-cv-01302-GKS-LRH Document 30 Filed 01/21/20 Page 2 of 2 PagelD 1730
CIVIL APPEALS JURISDICTION CHECKLIST
1.

2.

Appealable Orders: Courts of Appeals have jurisdiction conferred and strictly limited by statute:

(a)

Appeals from final orders pursuant to 28 U.S.C. Section 1291: Only final orders and judgments of district courts, or final orders
of bankruptcy courts which have been appealed to and fully resolved by a district court under 28 U.S.C. Section 158, generally are
appealable. A final decision is one that “ends the litigation on the merits and leaves nothing for the court to do but execute the
judgment.” Pitney Bowes. Inc. V. Mestre. 701 F.2d 1365, 1368 (11th Cir. 1983). A magistrate judge’s report and recommendation
is not final and appealable until judgment thereon is entered by a district court judge. 28 U.S.C. Section 636(c).

(b)

In cases involving multiple parties or multiple claims, a judgment as to fewer than all parties or all claims is not a final,
appealable decision unless the district court has certified the judgment for immediate review under Fed.R.Civ.P. 54(b), Williams
v. Bishop. 732 F.2d 885, 885-86 (11th Cir. 1984). A judgment which resolves all issues except matters, such as attorneys’ fees and
costs, that are collateral to the merits, is immediately appealable. Budinich v. Becton Dickinson & Co.. 486 U.S. 196, 201, 108 S.
Ct. 1717, 1721-22, 100 L.Ed.2d 178 (1988); LaChance v. Duffy’s Draft House. Inc.. 146 F.3d 832, 837 (11th Cir. 1998).

(C)

Appeals pursuant to 28 U.S.C. Section 1292(a): Appeals are permitted from orders “granting, continuing, modifying, refusing
or dissolving injunctions or refusing to dissolve or modify injunctions...” and from “[ijnterlocutory decrees...determining the rights
and liabilities of parties to admiralty cases in which appeals from final decrees are allowed.” Interlocutory appeals from orders
denying temporary restraining orders are not permitted.

(d)

Appeals pursuant to 28 U.S.C. Section 1292(b) and Fed.R.App.P.5: The certification specified in 28 U.S.C. Section 1292(b)
must be obtained before a petition for permission to appeal is filed in the Court of Appeals. The district court’s denial of a motion
for certification is not itself appealable.

(e)

Appeals pursuant to judicially created exceptions to the finality rule: Limited exceptions are discussed in cases including, but
not limited to: Cohen V. Beneficial Indus. Loan Corp.. 337 U.S. 541,546,69 S.Ct. 1221, 1225-26, 93 L.Ed. 1528 (1949); Atlantic
Fed. Sav. & Loan Ass’n v. Blythe Eastman Paine Webber. Inc.. 890 F. 2d 371, 376 (11th Cir. 1989); Gillespie v. United States
Steel Corp.. 379 U.S. 148, 157, 85 S. Ct. 308, 312, 13 L.Ed.2d 199 (1964).

Time for Filing: The timely filing of a notice of appeal is mandatory and jurisdictional. Rinaldo v. Corbett. 256 F.3d 1276, 1278 (11th Cir.
2001). In civil cases, Fed.R.App.P.4(a) and (c) set the following time limits:

(a)

Fed.R.App.P. 4(a)(1): A notice of appeal in compliance with the requirements set forth in Fed.R.App.P. 3 must be filed in the
district court within 30 days after the entry of the order or judgment appealed from. However, if the United States or an officer or
agency thereof is a party, the notice of appeal must be filed in the district court within 60 days after such entry. THE NOTICE
MUST BE RECEIVED AND FILED IN THE DISTRICT COURT NO LATER THAN THE LAST DAY OF THE APPEAL
PERIOD - no additional days are provided for mailing. Special filing provisions for inmates are discussed below.

(b)

Fed.R.App.P. 4(a)(3): “If one party timely files a notice of appeal, any other party may file a notice of appeal within 14 days after
the date when the first notice was filed, or within the time otherwise prescribed by this Rule 4(a), whichever period ends later.”

(C)

Fed.R.App.P.4(a)(4): If any party makes a timely motion in the district court under the Federal Rules of Civil Procedure of a type
specified in this rule, the time for appeal for all parties runs from the date of entry of the order disposing of the last such timely
filed motion.

(d)

Fed.R.App.P.4(a)(5) and 4(a)(6): Under certain limited circumstances, the district court may extend the time to file a notice of
appeal. Under Rule 4(a)(5), the time may be extended if a motion for an extension is filed within 30 days after expiration of the
time otherwise provided to file a notice of appeal, upon a showing of excusable neglect or good cause. Under Rule 4(a)(6), the
time may be extended if the district court finds upon motion that a party did not timely receive notice of the entry of the judgment
or order, and that no party would be prejudiced by an extension.

(e)

Fed.R.App.P.4(c): If an inmate confined to an institution files a notice of appeal in either a civil case or a criminal case, the notice
of appeal is timely if it is deposited in the institution’s internal mail system on or before the last day for filing. Timely filing may
be shown by a declaration in compliance with 28 U.S.C. Section 1746 or a notarized statement, either of which must set forth the
date of deposit and state that first-class postage has been prepaid.

3.

Format of the notice of appeal: Form 1, Appendix of Forms to the Federal Rules of Appellate Procedure, is a suitable format. See also
Fed.R.App.P. 3(c). A pro se notice of appeal must be signed by the appellant.

4.

Effect of a notice of appeal: A district court loses jurisdiction (authority) to act after the filing of a timely notice of appeal, except for actions
in aid of appellate jurisdiction or to rule on a timely motion of the type specified in Fed.R.App.P. 4(a)(4).

-2-

USCA11 Case: 20-10622

Date Filed: 10/16/2020

IN THE UNITED STATES

Page: 1 of 1

COURT OF APPEALS

FOR THE ELEVENTH CIRCUIT

No. 20-10622-J
JORGE CERVANTES,

Petitioner-Appellant,
versus

Respondents-Appellees.
Appeal
the United States DjjWct
for the Middle District of Florida

Before.- JILL PRYOR and BRASHER,

Circuit Judges.

BY THE COURT:
Jorge Cervantes has filed

a motion for reconsideration, p
ursuant to 11th Cir. R. 22-1(c) and
27-2, of this Court’s September 3, 2020, order denying
certificate of appealability and leave to
proceed in forma pauperis in his
appeal of the district court’s denial
of his pro se petition for a
wnt of habeas
corpus, pursuant to 28 U.S.C
§ 2254. Upon review, Cervantes’ motion for
reconsideration is DENIED b
ecause he has offered no new evidence
or arguments of merit to
warrant relief.

\

i
!

i

*

ApPEkiblX

B

I

i

■*

&

hPKtim t

!*

I

District Court of Appeal
Fifth District
300 South Beach Street
Daytona Beach, Florida 32114
(386)255-8600
ACKNOWLEDGMENT OF NEW TASF
DATE:

November 29, 2016

STYLE:

JORGE CERVANTES

5DCA#:

5D16-4016

v. STATE OF FLORIDA

The Fifth District Court of Appeal has received the Notice of Appeal reflecting a filing date of 11/28/16.
The county of origin is Volusia.
The lower tribunal case number provided is 2010-030536-CFAES.
The filing fee is No Fee-3.850.
Case Type: Criminal

3.850 Non Summary

The Fifth District Court of Appeal’s case number must be utilized
filed in this cause.
THE ATTORNEY
SI°NED BY
Please review and comply with any handouts enclosed with this acknowledgment.

cc:

Volusia Co. Circuit Ct. Clerk

Office Of Attorney General

Jorge Cervantes

M

A

E

N
from

DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA

FIFTH DISTRICT
THIS CAUSE HAVING BEEN BROUGHT TO THIS COURT BY APPEAL OR BY PETITION, AND
AFTER DUE CONSIDERATION THE COURT HAVING ISSUED ITS OPINION OR DECISION;
YOU ARE HEREBY COMMANDED THAT FURTHER PROCEEDINGS AS MAY BE REQUIRED
BE HAD IN SAID CAUSE IN ACCORDANCE WITH THE RULING OF THIS COURT AND WITH THE
RULES OF PROCEDURE AND LAWS OF THE STATE OF FLORIDA.
WITNESS THE HONORABLE JAY P. COHEN, CHIEF JUDGE OF THE DISTRICT COURT OF
APPEAL OF THE STATE OF FLORIDA, FIFTH DISTRICT, AND THE SEAL OF THE SAID COURT AT
DAYTONA BEACH, FLORIDA ON THIS DAY.
DATE: July 09, 2018
FIFTH DCA CASE NO.: 5D 16-4016
CASE STYLE: JORGE CERVANTES v.

STATE OF FLORIDA

COUNTY OF ORIGIN: Volusia
TRIAL COURT CASE NO.: 2010-030536-CFAES
I hereby certify that the foregoing is
(a true copy of) the original Court mandate.

Q&iwyus
JOANNE P. SIMMONS, CLERK
cc:
Office Of Attorney General
Volusia Cty Circuit Crt Clerk

Rebecca Rock Mcguigan

Anthony M. Candela

Additional material
from this filing is
available in the
Clerk's Office.

